TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Inadequate Management Information
                           Has Adversely Affected the
                           Acceptance Agent Program



                                           June 19, 2009

                              Reference Number: 2009-40-087




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 19, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Inadequate Management Information
                               Has Adversely Affected the Acceptance Agent Program
                               (Audit # 200840016)

 This report presents the results of our review to determine whether the Internal Revenue
 Service’s (IRS) screening and monitoring of Acceptance Agents1 is effective. This audit was
 part of the Treasury Inspector General for Tax Administration’s Fiscal Year 2008 Annual Audit
 Plan. This audit is a followup to a prior Treasury Inspector General for Tax Administration
 audit2 and addresses the major management challenge of Providing Quality Taxpayer Service
 Operations.

 Impact on the Taxpayer
 The purpose of the Individual Taxpayer Identification Number (ITIN) is to provide alien
 individuals, whether or not they reside in the United States, an identifying number for use in
 connection with United States tax return filing requirements. One way taxpayers obtain ITINs is
 through IRS approved Acceptance Agents or Certifying Acceptance Agents.3 The primary
 means the IRS has to regulate Agents are the application screening process and the monitoring
 program. The volume of ITINs is growing, increasing the risk of fraudulent tax returns using

 1
   An Acceptance Agent is a person (an individual or an entity) who is authorized to assist alien individuals and other
 foreign persons (who are ineligible to receive Social Security Numbers) in obtaining an Individual Taxpayer
 Identification Number from the IRS. A Certifying Acceptance Agent is authorized to certify whether the
 documented proof is adequate.
 2
   Management Oversight of the Acceptance Agent Program Is Needed to Assure that Individual Taxpayer
 Identification Numbers Are Properly Issued (Reference Number 2003-30-020, dated November 6, 2002).
 3
   Hereafter both Acceptance Agents and Certifying Acceptance Agents will be referred to as Agents unless
 otherwise stipulated.
                  Inadequate Management Information Has Adversely Affected the
                                  Acceptance Agent Program



ITINs. Inadequate screening and monitoring increase the risk to both the taxpaying public and
the Federal Government for potential losses associated with unscrupulous Agents.

Synopsis
Management information is insufficient to effectively oversee the Acceptance Agent Program.
The ITIN Program’s management information system, the Real-Time System, only allows
queries to individual records and does not generate ad hoc reports or provide regular or periodic
reports that can be used to oversee the Acceptance Agent Program. As a result, the ITIN
Program Office is unable to monitor Agents or their activity and/or measure their compliance
with rules and regulations.
The application screening process also does not always ensure the integrity of the individuals
applying for participation in the Acceptance Agent Program. Our testing of a sample of
92 Agents’ application files showed required copies of green cards4 were not in the files for
10 (83 percent) of the 12 United States Resident Aliens in the sample.5 Seventy (95 percent) of
74 applicants did not have the required criminal background checks performed.
In addition, compliance checks are manual. The IRS does not use a system for Agents such as its
Automated e-file Application Processing System that automates the process of checking and
monitoring tax compliance and ensures that applicants are current with their tax return filings
and tax payments. Automating this process would alleviate the time it takes to process Agents’
applications.
Finally, monitoring visits to Agents are not being conducted. The ITIN Program Office stated
that as of August 18, 2008, it will no longer attempt to conduct compliance reviews of Agents.
The ITIN Program Office has only three analysts dedicated to the Acceptance Agent Program
and there are limited travel funds. The ITIN Program Office also believes it should not be
responsible for compliance work and it has contacted the IRS Examination function to see if it
can conduct compliance reviews of Agents.

Recommendations
We recommended that the Commissioner, Wage and Investment Division, and the Deputy
Commissioner for Operations Support, ensure that the Real-Time System is modified to generate
periodic and regular reports, followed by the development of procedures and internal controls to
monitor the Acceptance Agent Program. The Commissioner, Wage and Investment Division,


4
  A green card, or permanent residence card, gives an individual official immigration status (Lawful Permanent
Residency) in the United States.
5
  One of the 10 applications was still in process.
                                                                                                                 2
               Inadequate Management Information Has Adversely Affected the
                               Acceptance Agent Program



should ensure that resources are sufficient to make certain all validations are completed and
checks passed before an application is accepted. Compliance checks should be automated.
In addition, the Commissioner, Wage and Investment Division, should provide sufficient staffing
to review the documents that support the Application for IRS Individual Taxpayer Identification
Number (Form W-7) submitted by Certifying Acceptance Agents. Finally, once the Real-Time
System is improved, the Agent information should be validated to ensure that the ITIN Program
Office has accurate and reliable data to make business decisions.

Response
IRS management agreed with all of our recommendations in the report. The IRS will modify the
Real-Time System to generate periodic and regular reports, including ad hoc reports. Once the
ITIN Real-Time System has been modified, the ITIN Program Office will develop procedures
and internal controls to effectively monitor the Acceptance Agent Program. Further,
10 additional assistors will be trained to process ITIN applications. This will ensure that
resources are sufficient and available as backup to the current resources. Meetings are also
underway to determine the feasibility of automating compliance checks.
The ITIN Program Office is currently working with the Small Business/Self-Employed Division
Examination Policy function to develop a compliance review process. Finally, the IRS agreed to
validate the Acceptance Agent information to ensure that accurate data are stored in the system.
Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                3
                    Inadequate Management Information Has Adversely Affected the
                                    Acceptance Agent Program




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          The Internal Revenue Service Has Insufficient Management
          Information to Effectively Oversee the Acceptance Agent Program ...........Page 5
                    Recommendations 1 and 2: ..............................................Page 10

          The Application Screening Process Does Not Always Ensure the
          Integrity of the Individuals Applying for Participation in the
          Acceptance Agent Program ..........................................................................Page 10
                    Recommendations 3 and 4: ..............................................Page 13

          Monitoring Visits to Agents Are Not Being Conducted...............................Page 14
                    Recommendations 5 and 6: ..............................................Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Management’s Response to the Draft Report ......................Page 22
       Inadequate Management Information Has Adversely Affected the
                       Acceptance Agent Program




                       Abbreviations

IRS              Internal Revenue Service
ITIN             Individual Taxpayer Identification Number
MITS             Modernization and Information Technology Services
U.S.             United States
                  Inadequate Management Information Has Adversely Affected the
                                  Acceptance Agent Program




                                             Background

The Internal Revenue Code provides that any person required to file a tax return, statement, or
other document shall include an identifying number for securing proper identification of that
person. The Social Security Number shall be used as the identifying number for an individual
for this purpose, except as otherwise specified under regulations.1 A United States (U.S.)
Individual Income Tax Return (Form 1040) is the primary tax return filed by individuals.
In general, the Social Security Administration limits its assignment of Social Security Numbers
to individuals who are U.S. citizens and alien individuals legally admitted to the U.S. for
permanent residence or under other immigration categories authorizing U.S. employment.
Consequently, individuals who do not meet these criteria cannot obtain Social Security Numbers.
In past years, alien individuals who could not obtain
Social Security Numbers, and who had income that was                           Only U.S. citizens and alien
taxable by the U.S., would file tax returns without                          individuals legally admitted to
identifying numbers. To help these taxpayers comply with                         the U.S. for permanent
the identification requirements of the Internal Revenue                     residence are allowed to obtain
Code, Treasury Regulations2 were issued in 1996 to                              Social Security Numbers.
provide for an Internal Revenue Service (IRS) Individual
Taxpayer Identification Number (ITIN). The purpose of
the ITIN was to provide alien individuals, whether or not
they reside in the U.S., an identifying number for use in
connection with U.S. tax return filing requirements.
Also, Treasury Regulations provide that the IRS assign ITINs to resident aliens who cannot
obtain a Social Security Number. The ITIN is intended for tax purposes only and creates no
inference regarding an alien individual’s right to be legally employed in the U.S. and that
individual’s immigration status3 (i.e., the ITIN does not authorize a foreign individual to work or
live in the U.S.).
Individuals apply for an ITIN using the Application for IRS Individual Taxpayer Identification
Number (Form W-7). The IRS began processing Forms W-7 in July 1996 and estimates that as
of October 2008 it has issued almost 14 million ITINs.

1
  26 U.S.C. § 6109 (2003).
2
  Treas. Reg. § 301.6109.
3
  Treas. Reg. § 301.6109-1. 26 U.S.C. § 7701 (2003) defines a resident alien as a resident of the U.S. for any
calendar year if that individual was lawfully admitted for permanent residence. A resident alien is also a foreign
person in the U.S. who meets the “substantial presence” test, which is based on the number of days that person
resides in the U.S. A nonresident alien is neither a citizen of the U.S. nor a resident of the U.S.
                                                                                                              Page 1
                 Inadequate Management Information Has Adversely Affected the
                                 Acceptance Agent Program



Individuals apply for ITINs using the following three methods:
1. IRS. An individual submits the Form W-7, documentation to substantiate information
   reported on the Form W-7, and a completed tax
   return directly to the IRS. An applicant may submit the     The IRS provides multiple
   documents at an IRS local office called a Taxpayer      avenues to apply for an ITIN – an
   Assistance Center or mail the application to the IRS’   applicant can mail Form W-7 and
                                                             supporting documents to the
   Austin, Texas, processing center.                         IRS, apply at an IRS Taxpayer
2. Acceptance Agent. An Acceptance Agent is a person              Assistance Center, or use the
                                                                  services of an IRS-approved
   (an individual or an entity) who, pursuant to a written       Acceptance Agent or Certifying
   agreement with the IRS, is authorized to assist alien               Acceptance Agent.
   individuals and other foreign persons (who are ineligible
   to receive a Social Security Number) in obtaining an ITIN from the IRS. The Acceptance
   Agent facilitates the application process by reviewing the necessary documents and
   forwarding the completed Form W-7 and supporting documents to the IRS. Acceptance
   Agents may charge a fee for this service.
3. Certifying Acceptance Agent. A Certifying Acceptance Agent is authorized to certify
   whether the documented proof is adequate and is not required to send the supporting
   documentation to the IRS unless requested. The Certifying Acceptance Agent reviews the
   applicant’s documentation, completes a certificate of accuracy, and forwards the certificate
   and Form W-7 to the IRS for processing. The Certifying Acceptance Agent is required to
   keep copies of the documents for 3 years after making an appropriate notation on the
   Form W-7 and forwarding it to the IRS.
An individual applies to become an Acceptance Agent or Certifying Acceptance Agent4 by
submitting to the IRS the paper Application to Participate in the IRS Acceptance Agent Program
(Form 13551). Figure 1 provides an excerpt of Form 13551.




4
 Hereafter both Acceptance Agents and Certifying Acceptance Agents will be referred to as Agents unless
otherwise stipulated.
                                                                                                          Page 2
                 Inadequate Management Information Has Adversely Affected the
                                 Acceptance Agent Program



                               Figure 1: Excerpt From Form 13551




      Source: The IRS’ Public Internet site, IRS.gov.

Once the IRS determines that the applicant qualifies to be an Agent, an agreement is entered into
between the IRS and the individual or entity authorized by the agreement to act as an Agent on
behalf of an alien individual or other foreign person. The agreement stipulates the terms and
procedures to be followed by the IRS and the Agent to ensure proper administration of the
process by which the IRS issues ITINs to alien individuals and foreign persons. The agreement
is in effect until December 31st of the fourth full calendar year after the year in which the
agreement went into effect. All existing agreements expired December 31, 2006, and all Agents
had to reapply to retain their status.
As of November 6, 2008, there were 4,790 active Agents in the Acceptance Agent Program.
Approximately 91 percent of the Agents are Certifying Acceptance Agents. Approximately
78 percent of all Agents are also preparers.5
In Fiscal Year 2003, the IRS established the ITIN Project Office, operating with a Director and
two analysts. By Fiscal Year 2004, the ITIN Project Office evolved into the ITIN Program
Office (hereafter referred to as the Program Office) adding six additional analysts to administer
oversight for both the processing of the Forms W-7 and administering the Acceptance Agent
Program. The Acceptance Agent Program is responsible for processing applications, initiating
agreements, and monitoring the applicants in the Program to ensure that they are in compliance
with rules and regulations.



5
 Agents supplied an Employer Identification Number on the Agent application that matched the Employer
Identification Number of a preparer on the IRS’ preparer file for Processing Year 2008.
                                                                                                        Page 3
                 Inadequate Management Information Has Adversely Affected the
                                 Acceptance Agent Program



This review was performed at the Wage and Investment Division Program Office in
Atlanta, Georgia, and the IRS Campus6 in Austin, Texas, during the period May 2008 through
February 2009. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




6
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 4
                 Inadequate Management Information Has Adversely Affected the
                                 Acceptance Agent Program




                                    Results of Review

The Internal Revenue Service Has Insufficient Management
Information to Effectively Oversee the Acceptance Agent Program
In a Fiscal Year 2003 audit report, we reported that the IRS needed more management oversight
of the Acceptance Agent Program.7 Since our report was issued, the IRS has made
improvements. It has, for example:
    •   Established the Program Office to oversee the Acceptance Agent Program.
    •   Developed the Form 13551, which includes certification statements about tax
        compliance.
    •   Developed procedures to check for Agent suitability and conduct background checks.
    •   Implemented a process requiring Agents to reapply to the Acceptance Agent Program and
        go through suitability testing every 4 years.
    •   Conducted seminars and forums to educate Agents and tax practitioners about the
        Acceptance Agent Program.
In addition, in July 2006, the IRS deployed the ITIN Real-Time System to control Agents and
ITIN information. The IRS stated that the Real-Time System provides a one-stop service for
processing Forms 13551 and W-7 and issuing ITINs.
Nevertheless, the IRS had not developed detailed management information that is vital to making
decisions concerning the oversight of the Acceptance Agent Program. The ITIN Program Office
can query individual records on the Real-Time System but the System has limitations. It does
not generate ad hoc reports to obtain the data needed to analyze and monitor the Acceptance
Agent Program. The System also does not generate automated reports or provide regular or
periodic reports that can be used to oversee the Acceptance Agent Program. As a result, the
Program Office is unable to monitor Agents or their activity and/or measure their compliance
with rules and regulations.




7
 Management Oversight of the Acceptance Agent Program Is Needed to Assure that Individual Taxpayer
Identification Numbers Are Properly Issued (Reference Number 2003-30-020, dated November 6, 2002).
                                                                                                     Page 5
                    Inadequate Management Information Has Adversely Affected the
                                    Acceptance Agent Program



The total number of Agents, which Agents are active, and the number of Forms
W-7 the Agents submitted cannot be determined
Because the Real-Time System does not have report capabilities, the Program Office cannot
readily determine the number of current Agents or the number of Forms W-7 submitted by each.
                                     In July 2008, we requested two data extracts8 from the
  Real-Time System Statuses:         Real-Time System, the Agent files, and the ITIN files.
  1. Approved/Active.                The extracts would allow us to determine the status of the
  2. Expired Agreement.              ITIN Program; e.g., the status of Forms 13551, the number
  3. Failed IRS Tax Compliance       of active and inactive Agents, and the number of
     Check.                          Forms W-7 that have been submitted by each Agent. The
  4. Failed FBI* Criminal
     Background Check.
                                     Program Office stated that it did not have the ability to
  5. Failed FBI/IRS Tax Compliance   provide extracts and the information had to be requested
     Check.                          from the IRS’ Modernization and Information Technology
  6. In-Process IRS Check.           Services (MITS) organization.9 The extracts were not
  7. Incomplete/Invalid Application. provided until November 2008.
    8.  Passed ERO* Status.
    9.  Passed Suitability Checks.             Agents are entered into the Real-Time System using their
    10. Pending.                               Employer Identification Numbers10 and their type –
    11. Rejected.
    12. In-Process FBI Check.
                                               Acceptance Agent or Certifying Acceptance Agent. A
    13. Suspended from the                     status is used to determine if they are, for example, Active,
        Acceptance Agent Program.              Expired, Pending, or Terminated.
    14. Terminated.
    15. Passed FBI Check.                      There were 7,126 Agents with unique Employee
                                               Identification Numbers in the Real-Time System. Of the
    * FBI = Federal Bureau of Investigation.   7,126:
      ERO = Electronic Return Originator.


•     4,790 were active Agents.
      o 4,336 (90.5 percent) were Certifying Acceptance Agents.
      o 265 (5.5 percent) were Acceptance Agents.
      o 189 (4 percent) did not show an Agent type.
•     2,336 were in the other 14 statuses, including terminated.



8
  IRS data were included in Figures 2 and 4. The data included in these figures were provided for perspective only
and were not audited.
9
  The MITS organization delivers information technology services for the IRS.
10
   Employer Identification Numbers are nine-digit numbers assigned by the IRS to sole proprietors, corporations,
partnerships, estates, trusts, and other nonindividual entities for tax filing and reporting purposes.
                                                                                                            Page 6
                  Inadequate Management Information Has Adversely Affected the
                                  Acceptance Agent Program



Agents needing to reapply to the Program had not been identified
To perform complete suitability and background checks, regulations required that all Agents in
the Acceptance Agent Program prior to January 9, 2006, reapply to the Program by
December 31, 2006. In addition, they are to reapply every fourth year. The next application
period is December 31, 2010. The Real-Time System showed 742 (15 percent) active Agent
agreements were signed prior to January 2006, but the Agents have not reapplied to the
Acceptance Agent Program. In addition, 68 (1 percent) had no agreement dates.
The Real-Time System does not allow the Program Office to query for a list of Agents who have
not reapplied; therefore, it does not know which Agents or the number of Agents who have not
reapplied. If the Agents do not reapply, suitability and background checks are not performed.

Agents submitting fewer than 50 applications per year had not been identified
The IRS requires that Agents submit at least 50 Forms W-7 a year to remain active. However,
41 percent (1,968 of 4,790) of active Agents11 did not submit any Forms W-7 from
October 1, 2007, through November 26, 2008, and 24 percent12 (624 of 2,627) of the active
Certifying Acceptance Agents submitted fewer than 50 Forms W-7. Figure 2 shows the number
of Agents submitting Forms W-7.
                  Figure 2: The Number of Agents Submitting Forms W-7

                                  Number of Agents        Number of Agents
                                                                                           Total
                                  Submitting Forms        Who Submitted No
                                                                                          Agents
                                        W-7                  Forms W-7

         Acceptance Agents                   145                     120                      265
         Certifying
                                           2,627                   1,709                    4,336
         Acceptance Agents
         No Type                              50                     139                      189

         Total Agents                      2,822                   1,968                    4,790
                                           (59%)                    (41%)
       Source: IRS’ Real-Time System.

In a Fiscal Year 2003 Treasury Inspector General for Tax Administration audit report, we
recommended that the IRS terminate the agreement with Agents who do not submit a
predetermined number of Forms W-7. This would also ensure that the IRS rejects Form 13551


11
   For the agents who signed agreements after October 1, 2007, 473 of the 1,968 active Agents did not submit any
Forms W-7 from October 1, 2007, through November 26, 2008.
12
   These only include Certifying Agents who had agreements signed prior to October 1, 2007.
                                                                                                           Page 7
                    Inadequate Management Information Has Adversely Affected the
                                    Acceptance Agent Program



for any Agent who does not precertify that he or she plans to annually submit a certain number of
Forms W-7. The IRS determined that it would require Agents to submit at least 50 Forms W-7
to be accepted into the Program. Agents are asked on Forms 13551 how many Forms W-7 they
plan to submit in a calendar year.
The Program Office has been unable to monitor the processing patterns of Agents through the
Real-Time System to determine if Agent agreements have become void because they submitted
an insufficient number of Forms W-7. The reports were to be functional in the Real-Time
System no later than September 30, 2008. However, as of February 2009, the reports were still
unavailable for the IRS to monitor the number of ITIN applications submitted by each Agent.
In addition, Agents can request that they be listed on IRS.gov. A statistical sample of active
Agents who requested to be on IRS.gov showed that 13 (15 percent) of the 88 Certifying
Acceptance Agents who had submitted fewer than 50 Forms W-7 were not listed on IRS.gov and
22 (81 percent) of the 27 Acceptance Agents were not on IRS.gov.

Agents having a high number of Forms W-7 rejected were not identified
Fifteen percent of active Agents who submitted Forms W-7 from Fiscal Year 1996 to 2008 had
at least 25 percent of their Forms rejected. This resulted in more than 5,400 rejected Forms (out
of approximately 14,000).
Being able to identify Agents who have a high volume of rejected Forms W-7 would allow the
Program Office to identify problem areas and problem Agents and know where to focus
compliance and/or education activities. This would also help reduce the rejection rate and save
limited IRS resources required to rework applications.

Suspended or terminated Agents had not been identified
From January 1, 2007, to September 17, 2008, the IRS Criminal Investigation Division requested
that 267 e-file Providers be terminated from the e-file Program. We found that 2 of the 267 were
active Agents. There is no process to notify the Program Office when an e-file Provider, who is
also an Agent, is suspended or terminated from the e-file Program. Seventy-nine percent of
Agents are also e-file Providers.13
Moreover, hundreds of other e-file Providers have been suspended or terminated from the e-file
Program for other reasons, such as, failing to file individual or business tax returns, having
balance-due tax returns, or being suspended or disbarred from practice.
After bringing this to the attention of the Program Office, it worked with other IRS offices and
now has set up a notification process to ensure that it knows when an e-file Provider is



13
     The Agent supplied an Electronic Filing Identification Number on the Agent application.
                                                                                               Page 8
               Inadequate Management Information Has Adversely Affected the
                               Acceptance Agent Program



terminated from the e-file Program so that it can determine if that termination would affect the
Agent’s status in the Acceptance Agent Program.

The list of Agents on the IRS’ public Internet site is not current and lists inactive
Agents
The ITIN Program provides a list of Agents on IRS.gov. The Program Office performs an
annual check to ensure that all the information contained on IRS.gov is accurate. The annual
check was recently conducted and certified in November 2008. However, a statistical sample of
95 inactive Agents showed that 9 (10 percent) of the 95 were still listed on IRS.gov. Listing
inactive Agents on IRS.gov could cause taxpayer burden because these Agents are no longer in
the Program. In addition, in situations where the Agent is inactive because they were not
complying with the Program rules and regulations, the IRS would be promoting noncompliant
Agents to the taxpayer, which could increase the chances of inaccurate ITIN applications being
filed. Program Office officials stated this happened because of the challenges they faced with
the significant increase in the number of Acceptance Agents who requested to be on IRS.gov.

The Program Office is working with the IRS’ MITS organization to obtain
Real-Time System reports
Requests are outstanding with the MITS organization to have programming performed to allow
the generation of the Real-Time System reports. Reports are needed to provide Program
oversight and guidance and to allow monitoring of Agent activities. The Program Office has
continuously requested that the Real-Time System functionality include Acceptance Agent
Program reports since the system was implemented in July 2006. The Program Office continues
to work with the MITS organization in an effort to obtain the reports. However, the MITS
organization estimates that adding query and report functionality, along with other functionality
requested by the Program Office, to the $3.9 million ITIN Real-Time System would cost another
$1 million. The Program Office currently does not have the funding to accomplish this. Without
this functionality, the Real-Time System is unusable for oversight.
Notwithstanding, we were able to obtain downloads of the data and perform queries and generate
reports using off-the-shelf software applications. Though funding may be required to alter the
System, other options should be made available to obtain the information needed by the Program
Office.
The Government Accountability Office Standards for Internal Control in the Federal
Government states that relevant, reliable, and timely information is needed in order to achieve
program objectives. The IRS needs to improve its Real-Time System and its management
controls to effectively manage the Acceptance Agent Program. The IRS does not have sufficient
management information concerning the characteristics of the Agents or the ITIN documents
submitted by the Agents. Consequently, the IRS has not determined whether the Program is


                                                                                            Page 9
                  Inadequate Management Information Has Adversely Affected the
                                  Acceptance Agent Program



functioning as intended. It is also unable to identify and manage any risks associated with the
Acceptance Agent Program.

Recommendations
The Commissioner, Wage and Investment Division, and the Deputy Commissioner for
Operations Support, should:
Recommendation 1: Ensure that the Real-Time System is modified to generate periodic and
regular reports, including ad hoc reports that can be timely generated when necessary.
        Management’s Response: The IRS agreed with this recommendation. The MITS
        organization has agreed to modify the Real-Time System to generate periodic and regular
        reports, including ad hoc reports.
Recommendation 2: Once the ITIN Real-Time System has been modified, develop
procedures and internal controls to monitor the Acceptance Agent Program to ensure that all
rules and regulations are being followed and the Acceptance Agent Program is operating as
intended.
        Management’s Response: The IRS agreed with this recommendation. Once the
        ITIN Real-Time System has been modified, the ITIN Program Office will develop
        procedures and internal controls to effectively monitor the Acceptance Agent Program.

The Application Screening Process Does Not Always Ensure the
Integrity of the Individuals Applying for Participation in the
Acceptance Agent Program
All Forms 13551 are submitted on paper and are manually processed. IRS employees manually
screen all Forms 13551 and enter the results into the Real-Time System. Employees are to verify
if new applicants are at least 21 years of age and if the applicants are indeed Electronic Return
Originators if they state they are.14 They also research IRS computer systems to verify the
Employer Identification Numbers and Social Security Numbers and if a green card15 is required
and is submitted with the Form 13551.
An analysis of a sample of 92 Agents’ application files showed the required copies of green
cards were not in the files for 10 (83 percent) of the 12 U.S. Resident Aliens in the sample. One


14
   Electronic Return Originators originate the electronic submission of income tax returns to the IRS. An Electronic
Return Originator electronically submits income tax returns that are either prepared by the Electronic Return
Originator firm or collected from a taxpayer.
15
   A green card, or permanent residence card, gives an individual official immigration status (Lawful Permanent
Residency) in the U.S.
                                                                                                           Page 10
                      Inadequate Management Information Has Adversely Affected the
                                      Acceptance Agent Program



of the 10 applications was still in process. The IRS has since requested the green cards for the
other nine applicants. Also, there was no fingerprint card in the file for one applicant who
should have submitted a fingerprint card.
An analysis of the Real-Time System also showed that 70 (95 percent) of 74 applicants who
checked “Yes” in Box 10 on Form 13551 did not have the required criminal background check
performed. Of the 70, 35 were listed in active status. Box 10 asks the applicant the following:
         10 Have you ever been assessed any preparer penalties, been convicted of a crime, failed to file
         personal tax returns, or pay tax liabilities, or been convicted of any criminal offense under the U.S.
         Internal Revenue laws?
              Yes   No (Please attach an explanation
                           for a “Yes” response.)

Further, of the 70 applicants who checked “Yes,” 32 (46 percent) did not provide the required
explanation.
There is no requirement to check applicants’ credit histories and only every fourth fingerprint
card is submitted to the Federal Bureau of Investigation.
                                                        In a Fiscal Year 2002 audit report,16 we reported
     Acceptance Agents must meet the                    that the application screening process for
     following requirements and suitability             e-file Providers17 did not ensure the integrity of the
     checks to be accepted into the Program:            individuals applying for participation in
     •     Be 21 years of age.                          the e-file Program. We reported that the IRS also
     •     Be a U.S. citizen, a U.S. Resident           does not conduct credit history checks on
           Alien, or a Nonresident Alien. If not a      e-file Program applicants and criminal background
           U.S. citizen but residing in the U.S., a
           copy of the applicant’s green card or        checks on e-file Provider applicants are generally
           visa is required,                            limited to random selections of every fourth
     •     Submit fingerprints, if not an attorney,     applicant who submits a fingerprint card.
           Certified Public Accountant, enrolled
                                               In response to the report, IRS management stated
           agent, or Electronic Return Originator.
                                               that credit history checks were not performed
  • Pass suitability checks that include:
      IRS tax compliance check.
                                               because the checks were ineffective. Management
                                               previously indicated that additional criminal
      • A credit history check.
                                               background checks are not necessary and cited an
      • A Federal Bureau of Investigation
          background check.
                                               IRS business case study, which showed that, while
                                               10 percent of the investigations revealed
information, it was usually not significant enough to deny participation in the e-file Program.
Credit checks have not been performed on e-file Providers since 1998, but management is
currently determining their options. The IRS is also considering performing criminal

16
  E-File Providers Are Not Adequately Screened (Reference Number 2002-40-111, dated June 27, 2002).
17
  The e-file Program enables tax returns to be sent to the IRS in an electronic format via an authorized IRS e-file
Provider.
                                                                                                             Page 11
                    Inadequate Management Information Has Adversely Affected the
                                    Acceptance Agent Program



IRS uses for e-file Providers. The Electronic Tax Administration office recently compared the
Application to Participate in the IRS e-file Program (Form 8633) to the Form 13551 and found
that there was only one entry on the application that differed. An analysis of the Real-Time
System showed that 3,781 (79 percent) of the 4,790 active Agents are e-file Providers.21

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Ensure that resources are sufficient to make certain all validations are
completed and checks passed before an application is accepted and the IRS enters into
agreements with Agents.
           Management’s Response: IRS management agreed with this recommendation. Ten
           additional assistors will be trained to process the Form 13551. This will ensure that
           resources are sufficient and available as backup to the current resources, if needed, to
           make certain that validations are completed and checks passed before the application is
           sent to the ITIN Program Office for final approval.
Recommendation 4: Automate the compliance checks for the ITIN Program much like the
process followed in the e-file Provider Program.
           Management’s Response: IRS management agreed with this recommendation. The
           Wage and Investment Division Electronic Products and Services Support Senior
           Technical Advisor is currently facilitating meetings between the owners of the IRS e-file
           Application and the owners of the Form 13551 to determine if a combined application
           process is feasible. During a meeting the week of March 23, 2009, the ITIN Program
           Office reviewed all e-file Application suitability and background checks, and agreed with
           applying these same automated processes to the Acceptance Agent Program. This will
           allow the ITIN Program Office to use the same automated suitability and background
           check system and management information system that the IRS uses for e-file Providers.
           The Electronic Product and Services Support Office will complete its feasibility
           assessment and coordinate with the Electronic Tax Administration and Refundable
           Credits’ e-file Application and Participation Framework Study, which is currently
           underway. This Study is looking for ways to improve current e-file Application
           processes and criteria. The design, development, and implementation of a combined
           Acceptance Agent and e-file Provider suitability and background check system is
           contingent on the outcome of the Study and the availability of necessary funding.




21
     The Agent supplied an Electronic Filing Identification Number on the Agent application.
                                                                                               Page 13
                    Inadequate Management Information Has Adversely Affected the
                                    Acceptance Agent Program



Monitoring Visits to Agents Are Not Being Conducted
In Fiscal Year 2003, the Treasury Inspector General for Tax Administration reported that since
the inception of the Acceptance Agent Program, the IRS
had not performed any objective compliance reviews or
                                                              In Fiscal Year 2002, an ITIN Task
monitoring visits to ensure that Agents were complying        Force recommended performing
with all laws and regulations when submitting               compliance check visits for at least
Forms W-7. In response to the Fiscal Year 2003 report,            20 percent of the Agents.
IRS officials stated they had neither sufficient
management information on the number of applications
certified by each Agent nor the necessary resources to properly assess the Agents’ compliance
with documentation requirements.
According to Revenue Procedure 2006-10, the Certifying Acceptance Agent agreement will
specify the manner in which IRS compliance checks will take place (i.e., either onsite or through
correspondence). The procedures must enable the IRS to verify that the Acceptance Agent has
adequate procedures in effect to assist applicants properly. The procedures also must enable the
IRS to verify that the Acceptance Agent is complying with any record retention requirements
relating to the issuance of ITINs.
The Program Office stated that as of August 18, 2008, it would no longer attempt to conduct
compliance reviews of Agents. The Program Office has only three analysts dedicated to the
Acceptance Agent Program and there are limited travel funds. Therefore, it is not possible for
the Program Office to make onsite monitoring visits to 20 percent of the Agents.
In addition, the ITIN Program Office also believes it should not be responsible for compliance
work and it has contacted the IRS Examination function to see if it can conduct compliance
reviews of Agents. The Examination function currently conducts compliance reviews for e-file
Providers. Eighty percent of Certifying Acceptance Agents are e-file Providers.22

The volume of ITINs is growing, increasing the risk that fraudulent tax returns
could be submitted using ITINs
Per the IRS, as of October 18, 2008, 13.9 million ITINs have been issued by the IRS since
Fiscal Year 1996. Figure 3 shows a 246 percent increase in the number of individual income tax
returns filed reporting wages and using ITINs from Tax Year 2001 to Tax Year 2007.




22
     The Certifying Agent supplied an Electronic Filing Identification Number on the Agent application.
                                                                                                          Page 14
                  Inadequate Management Information Has Adversely Affected the
                                  Acceptance Agent Program



                                  Figure 3: ITIN Tax Return Statistics
                                                             Tax Year         Tax Year       Percentage
                                                               2001             2007          Change
            Total Individual Income Tax Returns               530,000        1,835,000           246%
            Paper Filed Tax Returns                           444,000           950,000          114%
            E-filed Tax Returns                                86,000           885,000          929%
                                                                                       23
          Source: Treasury Inspector General for Tax Administration Final Report.

There were 2.4 million tax returns filed using the Forms 104024 during Processing Year 2008.
For these tax returns, $240 million in taxes were paid with $3.7 billion in refunds.
Nonresident aliens are eligible for the Child Tax Credit and the Additional Child Tax Credit.
The credits are for taxpayers who have a qualifying child, who both lived with the taxpayer for
more than one-half of the year and is a U.S. citizen, a U.S. national, or a U.S. resident alien.
The maximum amount that can be claimed for the Child Tax Credit is $1,000 for each qualifying
child. The Additional Child Tax Credit is a refundable tax credit and is for certain individuals
who get less than the full amount of the Child Tax Credit. The Additional Child Tax Credit
provides the taxpayer a refund when no tax is owed. The IRS provides this example on IRS.gov:
         The taxpayers have two qualifying children, income of $86,000, and a tax liability of $500.
         Because their tax liability is less than the initial child tax credit ($2,000) they may be able to take
         the refundable Additional Child Tax Credit of $1,500 ($2,000-$500).

Since Fiscal Year 2005, the Program Office has been
monitoring the usage of the Credits on tax returns            During Fiscal Year 2007, the
submitted with Forms W-7. The Program Office, in            Examination function audited and
conjunction with the IRS Examination function, has        closed 3,161 cases changing almost
initiated a review of approximately 93,000 of these tax       50 percent of ITIN cases with
returns. The Examination function subsequently             assessments   averaging $2,156 per
                                                                          case.
initiated audits and has included this initiative in its
strategic plan. During Fiscal Year 2007, the
Examination function audited and closed 3,161 cases
changing almost 50 percent of these cases with assessments averaging $2,156 per case.


23
   Actions Are Needed to Ensure Proper Use of Individual Taxpayer Identification Numbers and to Verify or Limit
Refundable Credit Claims (Reference Number 2009-40-057, dated March 31, 2009).
24
   Included tax returns filed with only ITINs as a primary or secondary and does not include tax returns with ITINs
used to file U.S. Nonresident Alien Income Tax Return (Form 1040-NR) and U.S. Income Tax Return for Certain
Nonresident Aliens With No Dependents (Form 1040-NR-EZ). These forms are to be used by nonresident aliens.
Any individual who is not a citizen or resident of the U.S. is a nonresident alien individual. An alien individual
meeting either the “green card test” or the “substantial presence test” for the calendar year is a resident alien. Any
alien individual not meeting either test is a nonresident alien individual.
                                                                                                              Page 15
               Inadequate Management Information Has Adversely Affected the
                               Acceptance Agent Program



The Program Office is also working with the IRS Criminal Investigation Division on several
ITIN tax schemes. Processing Year 2008 schemes being worked by the Criminal Investigation
Division involve 14,636 ITIN tax returns and $42 million in refunds claimed. More than
1,000 (7 percent) of the 14,636 ITIN tax returns involved in schemes had ITINs issued with the
assistance of Agents. ************************1******************************
*************************************************1**************************
****1****.
Figure 4 shows that Certifying Acceptance Agents submit 95 percent of the Forms W-7
submitted by Agents.
           Figure 4: The Number of Forms W-7 Submitted by Agent Type
                 From October 1, 2007, through November 26, 2008

                                      Number of Forms W-7         Percentage of
                                          Submitted            Forms W-7 Submitted

            Acceptance Agents                13,340                  3 Percent
            Certifying Acceptance
                                            394,153                  95 Percent
            Agents
            No Type                           8,369                  2 Percent

            Total                           415,862                 100 Percent
           Source: IRS’ Real-Time System.

Almost 1.7 million ITINs were generated from Forms W-7 submitted from October 1, 2007,
through November 26, 2008. More than 400,000 (24 percent) of the almost 1.7 million ITINs
that were issued were from Form W-7 applications that were submitted by Agents.
Certifying Acceptance Agents are not required to provide copies of supporting documents to the
IRS. Compliance reviews could reduce the risk that ITINs are being issued inappropriately.
Though the Program Office does not have the resources to conduct monitoring visits, the Agent
agreement contains a statement that the information could be requested by mail. However, the
Program Office has not conducted compliance reviews by correspondence.
Acceptance Agents submit copies of original documents with the Forms W-7 to the IRS. These
have been reviewed by the IRS, thus significantly reducing risk. However, approximately
91 percent of the active agents in the Acceptance Agent Program are Certifying Acceptance
Agents and, therefore, the IRS does not review the vast majority of documents submitted by
Agents. Without proper oversight, there is an increased risk that fraudulent tax returns are being
filed using ITINs.
Currently, the IRS does not have sufficient staff to implement an effective compliance program
for the Acceptance Agent Program. However, automating the suitability process will free up
resources and adding approximately one additional Full-Time Equivalent should provide
                                                                                          Page 16
               Inadequate Management Information Has Adversely Affected the
                               Acceptance Agent Program



sufficient resources for an effective compliance program. Moreover, as management
information becomes available to monitor and track Agents’ activity, compliance activities will
be able to become more focused and reduce the resources needed.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 5: Implement a compliance review process to review the documents that
support the Forms W-7 submitted by Certifying Acceptance Agents to reduce risks associated
with the Acceptance Agent and ITIN Programs.
       Management’s Response: IRS management agreed with this recommendation. The
       ITIN Program Office is currently working with the Small Business/Self Employed
       Division Examination Policy function to develop a compliance review process. A
       Memorandum of Understanding is being completed between the ITIN Program Office
       and the Small Business/Self-Employed Division Examination Policy function to conduct
       compliance reviews.
Recommendation 6: Once the Real-Time System is improved, validate the Agent
information to ensure that the Program has accurate and reliable data to make business decisions.
       Management’s Response: IRS management agreed with this recommendation and
       will validate the Acceptance Agent information to ensure that accurate data are stored in
       the System. The validation will be completed by performing a quarterly review based on
       a valid sample size of approved Agents.




                                                                                         Page 17
                  Inadequate Management Information Has Adversely Affected the
                                  Acceptance Agent Program



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS’ screening and monitoring
of Acceptance Agents1 is effective. To accomplish this objective, we:
I.       Determined if the initial screening process is effectively identifying those Acceptance
         Agents that are not in compliance with Program requirements.
         A. Assessed actions taken by the IRS in response to prior Treasury Inspector General for
            Tax Administration recommendations.
         B. Determined if applicants met Acceptance Agent requirements prior to acceptance in
            the Program.
             1. Randomly selected a statistically valid sample of 92 active Acceptance Agents
                (out of 4,790) to assess compliance with Acceptance Agent requirements. Our
                sample size was selected based on a 10 percent error rate, a ±5 percent precision
                rate, and a 90 percent confidence level.
             2. Obtained extracts from the Real-Time System of the Agent and ITIN files. The
                extracts were provided by the IRS Modernization and Information Technology
                organization. The IRS did not perform validations of the data. These IRS data
                were included in Figures 2 and 4. The data included in these Figures were
                provided for perspective only and were not audited.
         C. Completed data analysis of ITIN data for Application for IRS Individual Taxpayer
            Identification Number (Form W-7) applicants to determine the taxes owed and
            refunds obtained.
II.      Determined if the IRS Acceptance Agent monitoring process is effectively identifying
         those Acceptance Agents that are not in compliance with Acceptance Agent Program
         requirements.
         A. Assessed actions taken by the IRS in response to prior Treasury Inspector General for
            Tax Administration recommendations.



1
 An Acceptance Agent is a person (an individual or an entity) who is authorized to assist alien individuals and other
foreign persons (who are ineligible to receive Social Security Numbers) in obtaining an Individual Taxpayer
Identification Number from the IRS. A Certifying Acceptance Agent is authorized to certify whether the
documented proof is adequate.
                                                                                                           Page 18
              Inadequate Management Information Has Adversely Affected the
                              Acceptance Agent Program



       B. Interviewed IRS management to determine the process followed for selecting
          Acceptance Agents for quality review visits.
       C. Assessed the accuracy of information available to taxpayers through IRS.gov that
          identifies Acceptance Agents by State.
          1. Randomly selected a statistically valid sample of 95 inactive Acceptance Agents
             (out of 1,455 inactive agents) to determine if they were listed on IRS.gov. Our
             sample size was selected based on a 10 percent error rate, a ±5 percent precision
             rate, and a 90 percent confidence level.
          2. Randomly selected a statistically valid sample of 88 out of 881 Certifying
             Acceptance Agents and 27 out of 37 Acceptance Agents, who requested to be on
             IRS.gov and submitted less than 50 Forms W-7 from October 1, 2007, to
             November 26, 2008, to determine if they were on IRS.gov. Our sample size was
             selected based on a 10 percent error rate, a ±5 percent precision rate, and a
             90 percent confidence level.
III.   Identified the internal controls the IRS uses to monitor the Acceptance Agent agreement
       process and determined if they are sufficient to assess whether applicants meet the
       requirements of an Acceptance Agent.
       A. Reviewed the internal guidelines, desk procedures, and other guidelines to determine
          the monitoring process of the Acceptance Agent agreement process.
       B. Obtained copies of the quality reviews the IRS conducted in 2008.
       C. Reviewed the documentation for the quality review visits to determine if the
          compliance reviews included all requirements per the Acceptance Agent agreements.
       D. Determined the results of the reviews and how the IRS is using the results.




                                                                                        Page 19
              Inadequate Management Information Has Adversely Affected the
                              Acceptance Agent Program



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Lena Dietles, Audit Manager
Pamela DeSimone, Lead Auditor
Roberta Fuller, Senior Auditor
Tracy Harper, Senior Auditor
Robert Howes, Senior Auditor
John Mansfield, Senior Auditor
Mary Keyes, Auditor
Nelva Usher, Auditor
James Allen, Information Technology Specialist
Arlene Feskanich, Information Technology Specialist
Kevin O’Gallagher, Information Technology Specialist




                                                                                    Page 20
             Inadequate Management Information Has Adversely Affected the
                             Acceptance Agent Program



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:RPA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI




                                                                               Page 21
   Inadequate Management Information Has Adversely Affected the
                   Acceptance Agent Program



                                                   Appendix IV

Management’s Response to the Draft Report




                                                         Page 22
Inadequate Management Information Has Adversely Affected the
                Acceptance Agent Program




                                                      Page 23
Inadequate Management Information Has Adversely Affected the
                Acceptance Agent Program




                                                      Page 24
Inadequate Management Information Has Adversely Affected the
                Acceptance Agent Program




                                                      Page 25
Inadequate Management Information Has Adversely Affected the
                Acceptance Agent Program




                                                      Page 26
Inadequate Management Information Has Adversely Affected the
                Acceptance Agent Program




                                                      Page 27
